CERTIFICATE OF SERVICE
I HEREBY CERTIFY that on July 22, 2020,1 filed the original foregoing with the
Clerk of Court. I further certify that I sent a copy of the foregoing document to the
following^
J. Scott Kirk
Rumberger, Kirk & Caldwell
A Professional Association
Lincoln Plaza, Suite 1400
300 South Orange Avenue
Orlando, Florida 32801
skirk@rumberger.com
(Attorney for Defendant)
via United States Postal Service and I further certify that I e-mailed a copy of the
foregoing document to the following*'
LaShawnda K. Jackson
li ackson@rumberger.com
(Attorney for Defendant)

CAROLYN HICKSWASHINGTON
Pro Se Litigant
3613 Lime Hill Road
Lauderhill, Florida 33319
(252) 673-0834
chickswashington@gmail.com

RECEIVED
JUL 2 9 2020
OFFICE OF THE CLERK
SUPREME COURT. U.S.

